Washington, D.C. 20530

September 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Lakento Brian Smith v. United States of America,
S.Ct. No. 20-5264

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 30, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 24, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 26, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5264
SMITH, LAKENTO BRIAN
USA

KENNETH P. TABLEMAN
KENNETH P. TABLEMAN, P.C.
161 OTTAWA AVENUE, NW
SUITE 404
GRAND RAPIDS, MI 49503-2701
616-233-0455
TABLEMANK@SBCGLOBAL.NET

